HHS/OIG-Audit--"Audit of Medicare Administrative Costs Incurred Under
Part A and B for Ankansas and Part B for Louisiana, (A-06-92-00071)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Administrative Costs Incurred Under Part A and B for
Arkansas and Part B for Louisiana," (A-06-92-00071)
August 7, 1992
Complete
Text of Report is available in PDF format (4.16 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report presents the results of our audit of Medicare administrative
costs incurred by Arkansas Blue Cross and Blue Shield, Inc. (the Plan). The Plan
is the intermediary/carrier for the State of Arkansas and the Carrier for the State
of Louisiana. For Arkansas, the Plan reported Medicare administrative costs of
$6,706,232 for Part A and $14,216,931 for Part B. For Louisiana, the Plan reported
Medicare administrative costs of $35,462,194 for Part B. Our recommended audit
adjustments reduce reported costs by $1,441,937 ($222,176 for Part A and $645,087
for Part B of Arkansas and $574,674 for Part B of Louisiana).